Pi

CLYDE PONTEFRACT, Plaintiff-Appellant, v. UNITED STATES OF AMERICA, et 3.,
Defendants-Appellees.
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
2020 U.S. App. LEXIS 35268
No. 20-3064
November 6, 2020, Filed
Notice:
NOT RECOMMENDED FOR FULL-TEXT PUBLICATION. SIXTH CIRCUIT RULE 28 LIMITS
CITATION TO SPECIFIC SITUATIONS. PLEASE SEE RULE 28 BEFORE CITING IN A PROCEEDING
IN A COURT IN THE SIXTH CIRCUIT. IF CITED, A COPY MUST BE SERVED ON OTHER PARTIES
AND THE COURT. THIS NOTICE IS TO BE PROMINENTLY DISPLAYED IF THIS DECISION IS
REPRODUCED.
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1}ON APPEAL FROM THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OHIO.Pontefract v. United States, 2019 U.S. Dist. LEXIS 219682, 2019 WL
7049912 (N.D. Ohio, Dec. 23, 2019)
Counsel
Clyde Pontefract, Plaintiff - Appellant, Pro se, Joint Base MDL, NJ.
Judges: Before: SUTTON, COOK, and WHITE, Circuit Judges., HELENE N. WHITE, Circuit Judge,
concurring in part and dissenting in part.
Opinion

ORDER
Clyde Pontefract, a pro se federal prisoner, appeals the district court's judgment dismissing his civil
rights complaint against the United States, the prison warden, and the prison food administrator. This
case has been referred to a panel of the court that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).
In his complaint, Pontefract alleged that the defendants violated his Eighth Amendment right to be
free from cruel and unusual punishments by serving him less than the recommended 2000 calories
of food per day. He laid out a scheme in which inmate workers intentionally provided insufficient
portions of food and then stole the remaining amount to sell to other prisoners. He also alleged that
the serving trays and utensils are too small, resulting in prisoners receiving too little food. Pontefract
asserted that he cannot maintain a proper weight and must avoid exercise or risk burning excess
calories.{2020 U.S. App. LEXIS 2} He sued under Bivens v. Six Unknown Named Agents of Federal
Bureau of Narcotics, 403 U.S. 388, 91 S. Ct. 1999, 29 L. Ed. 2d 619 (1971), which recognized an
implied right of action for damages against federal officers alleged to have violated a plaintiff's
constitutional rights. He sought declaratory relief, an injunction requiring the defendants to provide
larger food trays and allow for more flexible portion sizing, and damages.
The district court screened the complaint, see 28 U.S.C. §§ 1915(e)(2), 1915A, and dismissed it for

CIRHOT

1

C12020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

flpp. P
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

Appc*

f)

failure to state a claim upon which relief could be granted. Pontefract v. United States, No.
4:19CV0528, 2019 U.S. Dist. LEXIS 219682, 2019 WL 7049912 (N.D. Ohio Dec. 23, 2019). On
appeal, Pontefract argues that his suit is appropriate under Bivens.
We review de novo a district court's order dismissing a complaint for failure to state a claim under §§
1915A and 1915(e)(2)(B), employing the standard for Federal Rule of Civil Procedure 12(b)(6)
dismissals set out in Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009). Hill
v. Lappin, 630 F.3d 468, 470-71 (6th Cir. 2010). To avoid dismissal, "a complaint must contain
sufficient factual matter, accepted as true, to 'state a claim to relief that is plausible on its face.1"
Iqbal, 556 U.S. at 678 (quoting Bell Ati. Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct. 1955, 167
L. Ed. 2d 929 (2007)).
The district court dismissed the United States as a defendant because it has not waived sovereign
immunity for Bivens actions. See Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 69-71, 122 S. Ct. 515,
151 L. Ed. 2d 456 (2001). Pontefract argues that the United States is liable under a theory of
vicarious liability, but Bivens does not support such a claim. See Iqbal, 556 U.S. at 676. Thus, the
district court was correct to{2020 U.S. App. LEXIS 3} dismiss Pontefract's claims against the United
States.
To establish liability under Bivens, "a complaint must allege that the defendants were personally
involved in the alleged deprivation of federal rights." Nwaebo v. Hawk-Sawyer, 83 F. App'x 85, 86
(6th Cir. 2003); see Iqbal, 556 U.S. at 676-77. The district court dismissed claims against the warden
and food administrator because Pontefract had not alleged their personal involvement. On appeal.
Pontefract argues that the food administrator was personally responsible for the actions
alleged in the complaint, stating that "[h]e was legally responsible for the overall operation of the
Food Service Department." But "to establish liability," the plaintiff must allege that the constitutional
"violation was committed personally by the defendant." Robertson v. Lucas, 753 F.3d 606, 615 (6th
Cir. 2014). To satisfy this requirement, Pontefract would need to allege that the food administrator
personally served undersized portions or stole excess food. Because he failed to do so, the district
court correctly dismissed those claims. But Pontefract does maintain that the food administrator
"is solely responsible" for ordering the food and the small serving travs and for imposing a
one-size-fits-all program for food portions. Those allegations satisfy the
personal-involvement reguirementT2020 U.S. App. LEXIS 4)
Regardless, the district court properly dismissed Pontefract's inadequate-nutrition claim because only
a narrow range of claims fall within the scope of a Bivens claim. Bivens is a judicially created right of
action that has been applied in limited scenarios, and the Supreme Court has "made clear that
expanding the Bivens remedy is now a 'disfavored'judicial activity." Ziglarv. Abbasi, 137 S. Ct.
1843, 1857, 198 L. Ed. 2d 290 (2017) (quoting Iqbal, 556 U.S. at 675). Thus, in determining whether
Bivens applies, a court must ask ”[i]f the case is different in a meaningful way from previous Bivens
cases decided by [the Supreme Court];" if so, "then the context is new." Id. at 1859. And when a
claim arises in a new context, "a Bivens remedy will not be available if there are 'special factors
counselling hesitation in the absence of affirmative action by Congress.'" Id. at 1857 (quoting Carlson
v. Green, 446 U.S. 14, 18, 100 S. Ct. 1468, 64 L. Ed. 2d 15 (1980)).
Pontefract's Bivens claim arises in a new context. The district court appreciated that Carlson applied
Bivens to an Eighth Amendment claim for inadequate medical treatment of a federal prisoner's
asthma. 446 U.S. at 16 n. 1, 18-19. But the district court correctly declined to extend Bivens beyond
claims of inadequate medical assistance to claims of inadequate nutrition. As the district court noted,
Pontefract did not attempt to bring his claim within{2020 U.S. App. LEXIS 5) Carlson by alleging
"that he is medically underweight for his height" or that the prison's meals "have resulted in a serious

CIRHOT

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

A
Print to PDF without this message by purchasing novaPDF (http;//www.novapdf.com/)

medical need to which Defendants are deliberately indifferent." See Abbasi, 137 S. Ct. at 1864-65;
see also Hernandez v. Mesa, 140 S. Ct. 735, 743, 206 L. Ed. 2d 29 (2020) ("[0]ur understanding of a
'new context' is broad.").
Because Pontefract's claim arises in a new context, we "must then look to the special factors
analysis." Jacobs v. Alam, 915 F.3d 1028, 1037 (6th. Cir. 2019). At least two special factors counsel
hesitation here. First, "the existence of alternative remedies usually precludes a court from
authorizing a Bivens action." Abbasi, 137 S. Ct. at 1865. Pontefract had several alternatives to
bringing this Bivens action, including the Bureau of Prison's administrative remedies. See, e.g., 18
U.S.C. § 3626; 28 C.F.R. § 542.10. Second, prison expertise also counsels against recognizing this
extension. Courts "owe substantial deference to the professional judgment of prison administrators."
Adkins v. Wolever, 692 F.3d 499, 506 (6th Cir. 2012) (quoting Beard v. Banks, 548 U.S. 521, 522,
126 S. Ct. 2572, 165 L. Ed. 2d 697 (2006)); see Bistrian v. Levi, 912 F.3d 79, 94-95 (3d Cir. 2018)
(deference to prison administration constituted a special factor counselling hesitation). Both these
considerations "show that whether a damages action should be allowed is a decision for the
Congress to make, not the courts." Abbasi, 137 S. Ct. at 1860.
Pontefract also says that we should grant him declaratory and injunctive relief. But because he "has
not given us a good{2020 U.S. App. LEXIS 61 reason to distinguish between the forms of relief he
requests, we see no need to address his separate claims for equitable relief now that it is clear he
lacks a cause of action." Callahan v. Fed. Bureau of Prisons, 965 F.3d 520, 525 (6th Cir. 2020).
Indeed, he does not remotely explain why he is entitled to this relief in the absence Of a cognizable
Bivens claim. And in any event, Pontefract hasn't even alleged that the defendants acted with the
mental state necessary to make out an Eighth Amendment violation. Bays v. Montmorency Cty., 874
F.3d 264, 268 (6th Cir. 2017). The dissent notes that Pontefract complained about his food portions.
But those complaints don't show that the food administrator acted with "deliberate indifference"
toward his "serious medical needs." Id. (quoting Estelle v. Gamble, 429 U.S. 97, 105, 97 S. Ct. 285,
50 L. Ed. 2d 251 (1976)). Rather, prison officials' emails reflect an effort to address his complaints.
The prison officials advised Pontefract to "check your tray before you walk away from the line" so
they could "correct" any issue. And Pontefract thanked them on one occasion for serving "a greater
amount" of food.
Finally, Pontefract complains that the district court should have referred the case to a magistrate
judge, but that administrative choice falls within the district court's discretion. See 28 U.S.C. §
636(b)(1)(A).
We AFFIRM.
Concur
Concur by:

HELENE N. WHITE
Dissent

Dissent by:
HELENE N. WHITE
HELENE N. WHITE, Circuit Judge,{2020 U.S. App. LEXIS 7} concurring in part and dissenting
in part. I agree with most of my colleagues' conclusions. However, I vyould vacate the district court's
judgment as to Pontefract's equitable claims against the prison food administrator, Nick Ferguson,
because the conclusion that Pontefract is not entitled to bring an action for damages under Bivens
does not foreclose his entitlement to equitable relief, and construing Pontefract's pro se allegations

CIRHOT

3

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

. fi
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

R pp z*

R

liberally and drawing all reasonable inferences in his favor, Pontefract plausibly alleged that
Ferguson violated his Eighth Amendment rights by providing him with constitutionally inadequate
nutrition. Accordingly, I respectfully dissent in part.
The majority cites Callahan v. Federal Bureau of Prisons, 965 F.3d 520, 525 (6th Cir. 2020), to
suggest that Pontefract may not seek equitable relief. I do not read Callahan as precluding equitable
relief for prisoners, like Pontefract, who allege an ongoing constitutional violation even though they
may not be entitled to money damages by way of a Bivens action. We have previously explained
that federal prisoners "may file suit in federal court seeking injunctive relief" once they have
exhausted administrative remedies with the Bureau of Prisons. Koprowski v. Baker, 822 F.3d 248,
256 (6th Cir. 2016) (citing Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 74, 122 S. Ct. 515, 151 L. Ed.
2d 456 (2001)); see also Callahan, 965 F.3d at 527 (Moore, J., dissenting) (explaining{2020 U.S.
App. LEXIS 8} that, "by definition, Bivens actions seek monetary damages," and that resolution of
the Bivens question .does not resolve claims seeking equitable relief). Further, in Callahan, the court
concluded that the plaintiffs allegations could not establish a constitutional violation. Because I do .
not agree that Pontefract has failed to plausibly allege an Eighth Amendment violation against
Ferguson, I also do not agree that Callahan precludes equitable relief.
The district court found that Pontefract did not adequately allege that he suffered a sufficiently
serious constitutional deprivation to sustain a deliberate-indifference claim, noting that he did not
allege "that he is medically underweight for his height or that meals consisting of approximately 2000
calories per day have resulted in a serious medical need." Pontefract v. United States, No.
4:19CV0528, 2019 U.S. Dist. LEXIS 219682, 2019 WL 7049912, at *3 (N.D. Ohio Dec. 13, 2019).
Yet Pontefract alleged that he received "way below the daily recommended calorie intake of 2000
calories per day"; that the serving utensils are too small to provide adequate portions; that the
servings he receives are below the recommended levels; and that he is malnourished. The majority
finds that Pontefract did not adequately allege the requisite{2020 U.S. App. LEXIS 9} mental state.
However, Pontefract alleged that he sent emails to prison staff and filed grievances about these
issues, and'thus it is reasonable to infer, construing Pontefract's pro se complaint liberally, that
Ferguson was subjectively aware of the nutritional deficiencies and did not respond reasonably to
remedy them. Accordingly, viewing his allegations in the light most favorable to him, Pontefract has
adequately alleged an objectively serious deprivation that could sustain an Eighth Amendment claim
for the actions in which Pontefract alleged that Ferguson was personally involved.
I respectfully dissent in part.
ENTERED BY ORDER OF THE COURT

CIRHOT

4

© 2020 Matthew Bender & Company, Inc., a member or the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

1395503c
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Qslkt. 9o vA €-

Z' cx cir

— PETITIONER

(Your Name)
VS.

S~\rc,\g.5

Pi v^tr(cC),3

e.\ 3

— RESPONDENT(S)

PROOF OF SERVICE
I,
, 20

---------------- , do swear or declare that on this date,
, as required by Supreme Court Rule 29 I have

served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
$&V>o\;frr (r t've.r a

3~oA ■ice.

5

T*5 Q

VGv\iQ
\J

a

'XOS'IO- 005\ ,

OH
QA

\7

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20_i^
C3(Signature'

PONTEFRACT, CLYDE 13955035

-

CLYDE PONTEFRACT, Plaintiff, v. UNITED STATES OF AMERICA, et al„ Defendants.
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF OHIO, EASTERN
DIVISION
2019 U.S. Dist. LEXIS 219682
CASE NO. 4:19CV0528
December 23, 2019, Decided
December 23, 2019, Filed
Counsel

{2019 U.S. Dist. LEXIS 1}Clyde Pontefract, Plaintiff, Pro se, Lisbon,
OH.
Judges: Benita Y. Pearson, United States District Judge.
Opinion
Opinion by:

Benita Y. Pearson
Opinion

MEMORANDUM OF OPINION AND ORDER
Pro Se Plaintiff Clyde Pontefract is a federal prisoner at the Federal Correctional Institution Elkton
("FCI Elkton") in Lisbon, Ohio. He brings this action pursuant to Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics, 403 U.S. 388, 91 S. Ct. 1999, 29 L. Ed. 2d 619 (1971),
against the United State's of America, Warden Steven Merlak, and Nick Ferguson (collectively
"Defendants"). Complaint (ECF No. 1). Plaintiff claims that Defendants are deliberately indifferent to
his basic nutritional needs in violation of his rights under the Eighth Amendment of the United States
Constitution to be free from cruel and unusual punishment.
t

For the reasons that follow, this case is dismissed.
I. Background
Plaintiff alleges that he is 59 years old, 5'11" in height, and weighs 160 pounds or less. ECF No. 1 at
1111 34-36. He claims that he is receiving insufficient portion sizes at meal time which prevents him
from acquiring enough calories "to maintain proper weight and health over three years at below
calorie intake of 2000."1 ECF No. 1 at PagelD #: 14. Plaintiff claims that he must be cautious with
respect to exercise to avoid burning excessive calories. ECF No. 1 at 66. But, Plaintiff does not
allege what he believes{2019 U.S. Dist. LEXIS 2} to be a "proper weight" or that he is underweight.2
Nor does Plaintiff allege that his weight or reduced exercise has had a negative impact on his health.
Plaintiff claims that receiving insufficient portion sizes at meal time results from the "one size fits all"
portions served at FCI Elkton, Defendants not allowing a "Hot-Bar" at the institution, a food serving
tray that is too small, and food service workers stealing food to sell to the inmate population. ECF
No. 1 at WJ 19, 25; PagelD#: 15.
Plaintiff extensively cites menu items, required portions, and the reduced portions he claims to be
receiving. He filed numerous internal complaints and grievances to which the Warden responded
■ that proper portion sizes were being served that meet the nutritional requirements established by a

l yfcases

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

App 6
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

VoNremc
c-c

dAN A

13

registered dietician. Unsatisfied, Plaintiff suggested that the issue be settled by weighing 10 separate
items to determine "who is right and who is wrong" but that was not permitted. ECF No. 1 at
57-62.
Plaintiff asks the Court (among other actions) to: declare Defendants have violated his rights under
federal health and safety{2019 U.S. Dist. LEXIS 3} laws and the Constitution's prohibition against
cruel and unusual punishment; require Defendants to install a "Hot-Bar"; require larger food trays to
allow for increased portion sizes; discontinue the "one size fits all" practice with respect to. food
portion sizes; and, award him $200,000 in punitive damages. See ECF No. 1 at HU 67-73.
II. Standard of Review
Pro se pleadings are liberally construed by the Court. Boag v. MacDougall, 454 U.S. 364, 365, 102
S. Ct. 700, 70 L. Ed. 2d 551 (1982) (per curiam); Haines v. Kerner, 404 U.S. 519, 520, 92 S. Ct. 594,
30 L. Ed. 2d 652 (1972). Notwithstanding, the district court is required under 28 U.S.C. §
1915(e)(2)(B) to review all in forma pauperis complaints, and to dismiss before service any such
complaint that the Court determines is frivolous or malicious, fails to state a claim on which relief
may be granted, or seeks monetary relief against a defendant who is immune from such relief. See
Hill v. Lappin, 630 F.3d 468, 470 (6th Cir. 2010). While some latitude must be extended to pro se
plaintiffs with respect to their pleadings, the Court is not required to conjure unpleaded facts or
construct claims against defendants on behalf of a pro se plaintiff. See Grinter v. Knight, 532 F.3d
567, 577 (6th Cir. 2008) (citation omitted); Thomas v. Brennan, No. 1:18CV1312, 2018 U.S. Dist.
LEXIS 107248, 2018 WL 3135939, at *1 (N.D. Ohio June 26, 2018) (Gaughan, C.J.) (citing Beaudett
v. City of Hampton, 775 F.2d 1274, 1277 (4th Cir. 1985) and Erwin v. Edwards, 22 F. App’x. 579, 580
(6th Cir. 2001)).
In order to withstand scrutiny under § 1915(e)(2)(B) and § 1915A, "'a complaint must contain
sufficient factual matter, accepted as true, to state{2019 U.S. Dist. LEXIS 4} a claim to relief that is
plausible on its face.'" Hill, 630 F.3d at 470-71 (holding that the dismissal standard articulated in
Ashcroft v. Iqbal, 556 U.S. 662, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009), and Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007), governs dismissals for failure to
state a claim under § 1915(e)(2)(B) and § 1915A) (quoting Iqbal, 556 U.S. at 678, quoting Twombly,
550 U.S. at 570)). Thus, a complaint fails to state a claim on which relief may be granted when it
lacks "sufficient factual matter, accepted as true, to state a claim to relief that is plausible on its
face." Id. at 471.
III. Analysis
Before discussing the merits of Plaintiff's claim, the Court must determine whether that claim states
a Bivens cause of action. Bivens provides a cause of action against individual officers acting under
color of federal law alleged to have acted unconstitutionally. Correctional Services Corp. v. Malesko,
534 U.S. 61, 70, 122 S. Ct. 515, 151 L. Ed. 2d 456 (2001). It does not support an action against the
United States government or its agencies. Id: Accordingly, Plaintiff fails to state a cause of action
against the United States of America.
In order to state a plausible Bivens claim against Merlak and Ferguson, Plaintiff must allege facts
suggesting Merlak and Ferguson were personally involved in the claimed deprivation of his
constitutional rights. See Nwaebo v. Hawk-Sawyer, 83 F. App'x. 85, 86 (6th Cir. 2003) (citing Rizzo
v. Goode, 423 U.S. 362, 373-77, 96 S. Ct. 598, 46 L. Ed. 2d 561 (1976)). Plaintiff alleges that
Warden Merlak was "legally responsible for the overall operation of every department within [FCI
Elkton.]"{2019 U.S. Dist. LEXIS 51 See ECF No. 1 at HU 7, 64. Similarly, Plaintiff asserts that
Ferguson,'as the Food Administrator, is legally responsible for the operation of the food service

1 yfcases

2

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

6
department at FCI Elkton. ECF No. 1 at fflj 8, 64. But, Plaintiff does not claim that any conduct was
personally undertaken by either Merlak or Ferguson that allegedly violated his rights under the Eighth
Amendment. Neither Merlak nor Ferguson can be liable under Bivens on a theory of respondeat
superior. See Johnson v. U.S. Bureau of Prison, No. 4:12CV2802, 2013 U.S. Dist. LEXIS 60703,
2013 WL 1819227, at *4 (N.D. Ohio April 29, 2013) (Pearson, J.) (citing Okoro v. Scibana, 63 F.
App'x 182, 184 (6th Cir. .2003)); Jones v. City of Memphis, Tenn., 586 F.2d 622, 625 (6th Cir. 1978)
("the theory of [r]espondeat superior [is] fundamentally inconsistent with the import of Bivens"
(quotation marks and citation omitted)). Accordingly, Plaintiff fails to state a plausible claim for relief
against Merlak and Ferguson, and they must be dismissed from this action.

■

Even if Plaintiff were able to allege conduct personally undertaken by Merlak or Ferguson with
respect to his claim of inadequate nutrition, his claim would nevertheless be subject to dismissal. The
United States Supreme Court has made it clear that federal courts should refrain from extending a
Bivens remedy outside of the three specific contexts in which it has already been applied,
absent{2019 U.S. Dist. LEXIS 6) the presence of special factors which are not present here. See
Ziglarv. Abbasi, 137 S. Ct. 1843, 198 L. Ed. 2d 290 (2017). The Constitution does not directly
provide for a damages remedy for alleged constitutional violations. While Congress provided a
damages remedy for plaintiffs whose constitutional rights were violated by state officials through 42
U.S.C. § 1983, they did not provide such an expansive corresponding remedy for constitutional
violations by federal officials. But in Bivens, the Supreme Court recognized an implied damages
action to compensate persons injured by federal officers who violated the Fourth Amendment's
prohibition against unreasonable searches and seizures. Since then, the Court allowed a Bivens
remedy only in two other contexts: (1) in a Fifth Amendment gender-discrimination case, Davis v.
Passman, 442 U.S. 228, 99 S. Ct. 2264, 60 L. Ed. 2d 846 (1979), and (2) in an Eighth Amendment
cruel and unusual punishment clause case, Carlson v. Green, 446 U.S. 14, 100 S. Ct. 1468, 64 L.
Ed. 2d 15 (1980). Beyond these three contexts, the Supreme Court has not approved of an implied
damages remedy under the Constitution itself. Ziglar, 137 S. Ct. at 1855.
In Carlson, the Supreme Court permitted a Bivens action arising under the Eighth Amendment for
deliberate indifference to a federal prisoner's serious medical needs in failing to treat the prisoner's
asthma. Here, Plaintiff asserts an Eighth Amendment cruel and unusual punishment claim related to
adequate nutrition. Plaintiff claims he is only receiving approximately{2019 U.S. Dist. LEXIS 7} 2000
calories per day, is hungry after meals, and his weight is 160 pounds or less. Plaintiff does not
allege, however, that he is medically underweight for his height or that meals consisting of
approximately 2000 calories per day have resulted in a serious medical need to which Defendants
are deliberately indifferent.
The Supreme Court has not extended a Bivens remedy under the Eighth Amendment in the context
that Plaintiff asserts here and this Court declines to do so. Ziglar, 137 S. Ct. at 1859-60 (when a
different constitutional right is at issue from previous Bivens cases decided by the Supreme Court,
then the context is new). Indeed, another court considering an Eighth Amendment Bivens claim
concerning adequate nutrition also determined that such a claim represents a "new context" and
declined to extend a Bivens remedy. Lovett v. Ruda, No. 17-CV-02010-PAB-KLM, 2018 U.S. Dist.
LEXIS 167854, 2018 WL 4659111, at *8 (D. Colo. Sept. 28, 2018) ("[Tjhe Court finds that the
magistrate judge correctly applied Ziglar, 137 S. Ct. at 1854, in finding that plaintiff's Eighth
Amendment claim based on the deprivation of adequate nutrition constitutes a 'new context' for
purposes of determining whether to imply a Bivens remedy."), appeal dism'd, No. 18-1413, 2018 U.S.
App. LEXIS 37065, 2018 WL 8058575 (10th Cir. Dec. 11,2018); see also Hanson v. United States,
No. 18-17-DLB, 2018 U.S. Dist. LEXIS 178164, 2018 WL 5046067, at *2 (E.D. Ky. Oct. 17, 2018)
(citing Carlson, supra; Ziglar, supra) (dismissing and declining to extend Bivens when plaintiff alleged

I yfcases

3

■ © 2020 Matthew Bender &.Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

1395503c
Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

(\

an Eighth Amendment violation{2019 U.S. Dist. LEXIS 8} related to prison bathroom access),
appeal dism'd, No, 18-6173, 2018 U.S. App. LEXIS 37202, 2018 WL 7220935 (6th Cir. Dec. 28,
2018); Pauley on behalf of Asatru/Odinist Faith Cmty. v. Samuels, No. 1:15-CV-158, 2019 U.S. Dist.
LEXIS 161734, 2019 WL 4600195, at *10 (W.D. Pa. Sept. 23, 2019) (citing Karkalas v. Marks, No.
19-948, 2019 U.S. Dist. LEXIS 127441, 2019 WL 3492232, at *7 (E.D. Pa. July 31, 2019); Hanson,
2018 U.S. Dist. LEXIS 178164, 2018 WL 5046067, at *3) (Bivens claim at issue in Carlson was
based on an alleged violation of the Eighth Amendment for failure to provide adequate medical care,
not conditions of confinement).
Because Plaintiff has failed to state a cognizable Bivens claim, this action must be dismissed.
IV. Conclusion
For all of the foregoing reasons, this action is dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B). The
Court certifies pursuant to 28 U.S.C. § 1915(a)(3).that ah appeal from this decision could not be
taken in good faith.
IT IS SO ORDERED.
/s/Benita Y. Pearson
Benita Y. Pearson
United States District Judge
December 23, 2019
Date
JUDGMENT ENTRY
Having filed its Memorandum of Opinion and Order, the Court hereby dismisses this action pursuant
to 28 U.S.C. § 1915(e). Furthermore, the Court certifies pursuant to 28 U.S.C. § 1915(a)(3) that an
appeal from this decision could not be taken in good faith.
IT IS SO ORDERED.
/s/Benita Y. Pearson
Benita Y. Pearson
United States District Judge
December 23, 2019
Date
Footnotes

1
For Bivens claims arising in Ohio, the statute of limitations is two years. See Sinkfield v. United
States Marshals Serv., No. 1:19CV00392, 2019 U.S. Dist. LEXIS 173764, 2019 WL 4991644, at *2
n.8 (N.D. Ohio Oct. 7, 2019) (Pearson, J.) (citations omitted). To the extent that Pfaintiff is alleging a
Bivens claim beyond the two-year statute of limitations for doing so, those claims are time-barred
and dismissed.
'
2
1 yfcases

4

© 2020 Matthew Bender & Company, [nc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement,

&

Print to PDF without this message by purchasing novaPDF (http://www.novapdf.com/)

/"] j?p

^ ^7^ G

As an aside, according, to the U.S. Department of Health and Human Services ("HHS"), a body mass
index ("BMI") of less than 18.5 indicates that an. individual is underweight, and a BMI of 25 or more
indicates that an individual is overweight. An individual's weight is considered normal in a BMI range
of 18.5-24.9. See https://www.nhlbi.nih.gov/health/educational/losewt/BMI/bmicalc.htm. According to
the BMI calculator found at the HHS website, an individual with a height of 71" and weight of 160
pounds has a BMI of 22.3. An individual of the same height and a weight of 150 pounds has a BMI of
20.9. While this information is not dispositive of the Court's ruling herein, the Court notes that it may
take judicial notice of undisputed information on a government website and may consider such
information when determining whether a claim must be dismissed for failure to state a claim. See
Roberts v. Morvac, No. 6:18-CV-196-GFVT, 2018 U.S. Dist. LEXIS 194963, 2018 WL 6004666, at *2
n. 2 (E.D. Ky. Nov. 15, 2018) (citations omitted).

l yfcases

5

© 2020 Matthew Bender & Company, Inc., a member of the LcxisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

App G
Print to PDF without this message by purchasing novaRDF (http://www.novapdf.com/)

• .

